                                                    UNITED STATES
                               SECURITIES AND EXCHANGE COMMISSION
                                             WASHINGTON, D.C.         20549


     OFFICE OF
INSPECTOR GENERAL

                                               MEMORANDUM

                                                    March 10,2010

      TO:              Diego T. Ruiz
                       Executive Director

                       Jeffrey A. Risinger
                       Associate Executive Director
                       Office of Human Resources

                       Kenneth Jolmson
                       Acting Associate Executive Director
                       Office of Financial Management

                       Diane Galvin
                       Assistant Director for Planning and Budget
                       Office of Financial Management

      FROM:            H. David Kotz  ~ Y
                       Inspector Ge~l?"/

      SUBJECT:         Employee Recognition Program and Grants of Employee Awards (PI 09-07)

              An inquiry conducted by the Office ofInspector General (OIG) in response to an
      anonymous complaint found evidence that a former Regional Office Director of the Securities
      and Exchange Commission (SEC) used funds from the office's supplies budget to purchase non-
      monetary honorary or informal recognition awards, in the form of inscribed glass blocks, for
      staff members.

             The OIG found that the awards were not issued pursuant to an agency-sponsored awards
      program. I The OIG also found that the SEC's internal administrative regulation and policy did
      not provide SEC division or office directors or the SEC's Executive Director with authority to
      make or approve non-monetary awards outside the agency-sponsored awards program. In
      addition, the OIG determined that the absence of clear criteria to serve as the basis for making
      such awards could lead to an appearance of impropriety on the part of the manager making the
      award and a perception of unfairness or favoritism on the part of other staff.


      I The Government Employee Incentive Awards Act, 5 U.S.C. § 4501 et seq., and the Office of Personnel
      Management's implementing regulations and guidance, provide authority for agencies to develop honorary and
      informal recognition programs. The SEC has an Employee Recognition Program, which is described in Chapter 6-
      451.A of the Personnel Operating Policies and Procedures (POPPS), dated September 9, 1991, attaching and
      modifying SEC Regulation (SECR) 6-2, dated October 14, 1986.
       The OIG's inquiry also found that the fonner Regional Office Director was incorrectly
advised by the SEC's Executive Director that appropriated funds could be used to purchase
parking spaces to be given as employee awards, although this was not ultimately pursued. The
OIG detennined, based upon reviewing Comptroller General decisions pertaining to the use of
appropriated funds for employee parking,2 and infonnation about awards obtained from the
Office of Personnel Management, that appropriated funds may not be used to pay for parking for
employees as an award. This is because parking is considered a personal expense,3 and the
provision of a parking space does not meet the criteria for either an honorary or infonnal
recognition award.

        In the course of its inquiry, the OIG learp.ed that the SEC's internal regulation authorizing
the agency's Employee Recognition Program (ERP), SECR 6-2, as revised by Personnel
Operating Policies and Procedures (POPPS) Chapter 6-451.A, has not been updated since 1991.
The SEC's ERP does not provide any authority for infonnal recognition awards or any honorary
awards other than those awarded as part of the annual agency awards ceremony. Nevertheless,
we were infonned that some SEC divisions and offices, such as the Division of Enforcement and
the Office of Human Resources, have given such awards outside the ERP, sometimes using
supply funds or at the personal expense of senior managers. The OIG also found that the ERP
regulation is outdated in many respects, e.g., the list of honorary awards no longer reflects the
awards that are ~urrently available, and it does not reflect the fact that SEC employees are no
longer on the GS pay schedule. In addition, the internal ERP regulation and policy are not
posted on the SEC's Intranet site, the "Insider." The OIG believes that the ERP regulation and
policy should be thoroughly reviewed and appropriately updated and that the revised regulation
should be posted on the Insider website, so that the awards process will be clear and transparent.

         TheOIG inquiry also concluded that the use of the supplies Budget Object Class (BOC)
code for the inscribed glass block awards was not proper, particularly given that another BOC
(one for Cultural Awareness/ Ceremony - Related) is used for the SEC's honorary awards. We
were infonned by the Government Accountability Office (GAO) that, under the "pick and stick"
rule, if two budget categories are arguably available fot the same purpose, an agency should pick
one and stick with it. The OIG found that the SEC's use of more than one BOC for non-
monetary awards is contrary to the "pick and stick" rule and may lead to confusion and a lack of
transparency.

         Recommendation 1

        The Office ofthe Executive Director, in coordination with the Office of Human
        Resources, should review and update the internal regulation and policy for the

2 In re Subsidized Parkingfor Employees ofthe u.s. Mint, 72 Compo Gen. 139,141 (1993); In re Use of
Appropriated Funds to Pay Commercial Parking Costs ofSeverely Disabled Employees, 63 Compo Gen. 270, 272
(1984); To the Secretary ofTransportation, 49 Compo Gen. 476,478-80 (1970); To the Sec.retary ofthe Treasury, 43
Compo Gen. 131, 132 (1963).

3 "An agency may not use appropriated funds to pay for items of personal expense unless there is specific statutory
authority." In re Utility Costs under Work-at-Home Programs, 68 Compo Gen. 502, 505 (1989) (citing In re Dep 't
ofthe Interior - Purchase ofPhysical Exercise Equipment, 63 Compo Gen. 296 (1984».



                                                    -2-
Securities and Exchange Commission's (SEC's) Employee Recognition Program,
which is currently set forth in SEC Administrative Regulation (SEeR) 6-2 and
Chapter 6-451.A of the Personnel Operating Policies and Procedures, and post the
revised regulation and/or policy to the SEC's Intranet site.

Recommendation 2

The Office of the Executive Director, in coordination with the Office of Human
Resources, should ensure that the revised Employee Recognition Program
regulation and/or policy referred to in Recommendation 1 above specifically
addresses whether infonnal recognition awards and honorary awards in addition
to the existing annual awards are authorized and, if so, what criteria, standards
and approvals are pertinent to such awards.

Recommendation 3

The Office of the Executive Director, in coordination with the Office of Human
Resources and the Office of Financial Management, should ensure that the revised
Employee Recognition Program regulation and/or policy referred to in
Recommendation 1 above make clear that appropriated funds may not be used to
pay for employee parking as an award.

Recommendation 4

The Office of Financial Management should review the various Budget Object
Class (BOC) codes that are currently used for non-monetary employee awards,
select the most apposite BOC and ensure that all properly authorized non-
monetary employee awards are charged to that HOC.

Recommendation 5

The Office of Financial Management should approve requests to use appropriated
funds for non-monetary employee awards only after ensuring that an authorized
officer of the agency has approved such awards in accordance with statutory and
regulatory authority.
